HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Mutual of Omaha,"(A-05-02-00083)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of Mutual of Omaha," (A-05-02-00083)
March 14, 2003
Complete
Text of Report is available in PDF format (388 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare
Skilled Nursing Facility (SNF) payments contained in our database of payments
made under the administrative responsibility of Mutual of Omaha (Mutual). Our
review of the database estimated that $41.5 million of ineligible SNF payments
were made under the administrative responsibility of Mutual during calendar
years 1997 through 2001. The overpayments occurred because of the absence of
an automated cross-check, within the Centers for Medicare and Medicaid Services
Common Working File and Mutuals claims processing system, verifying that a
three consecutive day inpatient hospital stay occurred prior to SNF admission.